                                 CLOSEOUT FOR M-96050013


    On 16 May 1996, an NSF staff member' informed OIG about a concern he had received from a
    complainant2alleging that NSF mishandled the review of two NSF proposals (a preproposal and
    a full propo~al).~During the course of the inquiry, two additional allegations came to our
    attention: an alleged breach of the confidentiality of the peer review process and an alleged
    failure to declare conflicts of interests (COI).

    Allegation 1: The complainant alleged that, after the successful preproposal, which resulted in
    NSF encouraging the PIS to submit a full proposal, NSF mishandled the review process of the
    full proposal that resulted in its declination. OIG's inquiry gathered information about the
    review process and procedures for the two proposals. We interviewed many of the reviewers and
    the NSF program staff directly involved in the review and evaluation process of the proposal^.^

    We learned that one of the proposals' co-PIS, along with two other scientists from that co-PI'S
    in~titution,~visited NSF to discuss the PI'S preproposal submission with NSF staff just prior to
    the first panel meeting. At this meeting, the PI urged that the review of the preproposals be fair.
*   The PIS on the preproposal were encouraged to submit a full proposal, which they did. The panel
    for the full proposal recommended it be declined. Because of the earlier concerns for fairness
    expressed by the visitors to NSF at the preproposal stage, NSF program officers. requested
    another program officer6 not associated with the preproposal or full proposal program to review
    the full proposal and provide an evaluation. This program officer concluded that the proposal
    should not be considered further.

    The information OIG gathered from panelists, reviewers, and NSF staff showed that the review
    process had been fair and thorough and that the decision to decline the full proposal was fully
    supported by the panelists and NSF staff. We concluded that there was no substance to the
    allegation that the NSF review of the full proposal was mishandled.

    Allegation 2: OIG reviewed the allegation that the identities of three of the ad hoc reviewers for
    the proposals had been leaked to the complainant. The complainant told us he had been
    informed who three of the ad hoc reviewers were and which review had been submitted by each.
    The complainant refused to inform us who had provided him with this information. Our review
    provided insufficient evidence to pursue this allegation.




                                               Footnotes Redacted




                                                  Page 1 of 2
                             CLOSEOUT FOR-M 96050013

Allegation 3: OIG reviewed the COI statements for the ad hoc reviewers and panelists. We
discussed past affiliations with several of the people we interviewed. Although one of the
panelists who had declared a COI in the consideration of the full proposal did sit in on a panel
discussion, he did this with the permission of the program officer in charge, after agreeing not to
participate in the discussion. There was insufficient substance to the allegation that any of the
panelists or ad hoc reviewers had a COI with the proposals' PIS or the PIS' institutions that had
not been disclosed or had participated in a panel discussion to recommend declination.

OIG discussed several approaches to the Division's processing of pre and full proposals that
might prevent problems such as those that gave rise to these allegations.

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




                                              Page 2 of 2
